                                                         IG-02-027




AUDIT
                                NASA’S CONTRACT AUDIT
REPORT                            FOLLOW-UP SYSTEM

                                    September 30, 2002




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CO             Contracting Officer
CATS II        Corrective Action Tracking System II
DCAA           Defense Contract Audit Agency
DOD            Department of Defense
DODIG          DOD Inspector General
FAR            Federal Acquisition Regulation
FY             Fiscal Year
JPL            Jet Propulsion Laboratory
OMB            Office of Management and Budget
PIC            Procurement Information Circular
RCA            Reportable Contract Audit
                                  September 30, 2002
W


TO:            H/Assistant Administrator for Procurement

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Audit of NASA’s Contract Audit Follow-up System
               Assignment Number A-01-044-00
               Report Number IG-02-027


Enclosed please find the subject final report. Please refer to the Executive Summary for
the overall audit results. Our evaluation of your response has been incorporated into the
body of the report. We consider management’s proposed or completed corrective actions
responsive to the recommendations. The corrective actions completed for
recommendations 2 and 4 are sufficient to close those recommendations for reporting
purposes. Recommendations 1 and 3 will remain open for reporting purposes until
corrective actions are completed. Please notify us when actions have been completed on
the recommendations, including the extent of testing performed to ensure corrective
actions are effective. The final report distribution is in Appendix I.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Lorne A. Dear, Program Director, Procurement
Audits, at (818) 354-5634; Mr. Patrick A. Iler, Program Manager, at (216) 433-5408; or
Mr. Steven K. Siu, Auditor-in-Charge, at (818) 354-3451.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                                                          2

cc:
HQ/AI/Associate Deputy Administrator
HQ/B/Acting Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/JM/Director, Management Assessment Division
GRC/0100/Director, Glenn Research Center
GSFC/100/Director, Goddard Space Flight Center
JPL/180-801/Director, NASA Management Office, Jet Propulsion Laboratory
JSC/AA/Director, Johnson Space Center
LaRC/106/Director, Langley Research Center
MSFC/DAO1/Director, Marshall Space Flight Center
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Low Net Savings Rate for NASA-Negotiated Questioned
                Costs, 2

     Finding B. Monitoring Delegated Resolution Authority, 9

Appendix A - Objective, Scope, and Methodology, 14

Appendix B - Reportable Contract Audit Reports, 17

Appendix C - Audit Reports for Which NASA Negotiated Final
             Settlement, 18

Appendix D – Department of Defense Inspector General Review of
             Sustention Rates on Questioned Costs, 20

Appendix E – Reportable Contract Audit Reports for Which NASA
             Delegated Resolution and Disposition Authority, 21

Appendix F - Major NASA Contractors, 22

Appendix G - Summary of Prior Coverage, 23

Appendix H - Management’s Response, 25

Appendix I - Report Distribution, 28
                           NASA Office of Inspector General

IG-02-027                                                                   September 30, 2002
 A-01-044-00

                                  NASA’s Contract Audit
                                    Follow-up System

                                     Executive Summary

Background. NASA uses the services of other Federal agencies to perform audits of
contractors, educational institutions, and non-profit organizations receiving NASA grants
and contract awards. The focus of this audit was on audits performed by the Defense
Contract Audit Agency (DCAA). The DCAA audits are a critical oversight control over
contractors working on major NASA contracts and programs. For fiscal years (FY’s)
1999, 2000, and 2001, NASA paid the DCAA a total of $50.4 million ($15.4, $16.4, and
$18.6 million, respectively) for contract audit services.

To improve the effectiveness and efficiency of Government operations, Office of
Management Budget (OMB) Circular A-50, “Audit Followup” requires all Federal
agencies to establish audit follow-up systems “to assure the prompt and proper
resolution1 and implementation of audit recommendations.” Resolution should occur
within a maximum of 6 months after issuance of a final report,2 and corrective action
should proceed as rapidly as possible. The Circular also requires that the follow-up
systems provide for a complete record of action taken on both monetary and
nonmonetary findings and recommendations.

During FY 2000, we completed audits of NASA’s contract audit follow-up systems at
Goddard Space Flight Center (Goddard), Johnson Space Center (Johnson), and Marshall
Space Flight Center (Marshall). NASA management concurred with all our
recommendations and took corrective actions, which included issuing Procurement
Information Circular (PIC) 00-06, “Contract Administration and Audit Services,” dated
May 30, 2000. The PIC incorporated the DCAA definition of reportable contract audit
(RCA)3 reports and established requirements for reporting and tracking the reports.
Additionally, the PIC required contracting officers (CO’s) to maintain a dialog with the
Department of Defense (DOD) CO’s on the status of significant DCAA audit
recommendations on NASA contracts for which NASA delegated resolution and


1
  Resolution is the point at which the audit organization and agency management or contracting officials
agree on action to be taken on reported findings and recommendations; or in the event of disagreement,
resolution is the point at which the audit follow-up official determines the matter to be resolved.
2
  OMB Circular A-50 pertains to final audit reports containing findings and recommendations that are
issued to Federal agencies or contractors.
3
  RCA reports encompass a variety of DCAA reports, including those with questioned costs of $100,000 or
more. RCA reports are defined in Appendix B.
disposition authority to the DOD. NASA Centers are required to report all RCA reports
received to NASA headquarters so it can track the recommendations for reporting
purposes.

Objective. The overall audit objective was to evaluate the adequacy of NASA’s contract
audit follow-up system. Additional details on the objective, scope, and methodology are
in Appendix A.


Results of Audit. The NASA contract audit follow-up system can be improved. Where
NASA retained resolution and disposition authority for DCAA audit reports, NASA
CO’s achieved a significantly lower net savings4 percentage of the DCAA-reported
questioned costs5 than the DOD. Specifically, for 33 incurred cost, claims, and cost
accounting standards audit reports closed during FY’s 1999-2001, NASA CO’s achieved
net savings of only $14.9 million (19.0 percent) of the questioned costs totaling $78.6
million. For this same period and same types of reports, DOD CO’s achieved net savings
of 54.4 percent6 of the DCAA-reported questioned costs. Further, NASA’s net savings
have significantly declined over the last 3 years. We estimated that in comparison to
DOD net savings for the last 3 years, NASA did not recover an additional $28 million
dollars of DCAA-reported questioned costs (Finding A).

NASA CO’s also did not adequately monitor DCAA RCA reports on major NASA
contractors when NASA delegated resolution and disposition authority to the DOD.
Specifically, the NASA corrective action tracking system (CATS II)7 did not include

4
  The DCAA Financial Management Information System Manual defines net savings as the amount of
costs and/or profit the Government saves through sustention of DCAA questioned costs (see footnote 5).
The amount of net savings is dependent on the type of contract and type of audit (for example, incurred
cost, cost accounting standards, or forward pricing audits). Net savings from sustained questioned costs
are calculated recognizing the following:
     • Under cost-type contracts, the sustained questioned costs will be reported as the net savings
          amount.
     • Under incentive-type contracts, the net savings amount to be reported is the Government’s share
          of any sustained questioned costs.
     • For overhead, general and administrative expenses, and home office allocations, net savings will
          be calculated using the mix of contracts shown above applied to the sustained questioned costs.
5
  OMB Circular A-133, defines questioned cost as follows:
          Questioned cost means a cost that is questioned by the auditor because of an audit
          finding: (1) Which resulted from a violation or possible violation of a provision of a
          law, regulation, contract, grant, cooperative agreement, or other agreement or document
          governing the use of Federal funds, including funds used to match Federal funds; (2)
          Where the costs, at the time of the audit, are not supported by adequate documentation;
          or (3) Where the costs incurred appear unreasonable and do not reflect the actions a
          prudent person would take in the circumstances.
6
  The 54.4 percent net savings data was provided by the DCAA and represents all negotiations conducted
by DOD CO’s (including NASA contractors for those reports NASA delegated to DOD CO’s) for incurred
cost, claims, and cost accounting standards audit reports closed during FY’s 1999, 2000, and 2001.
7
  CATS II is the electronic tracking system that NASA uses to monitor the resolution and disposition of
audit recommendations, including DCAA contract audit recommendations and questioned costs.



                                                    ii
records for 24 sampled DCAA RCA reports for which NASA delegated resolution and
disposition authority to the DOD. This is a repeat finding8 and shows that NASA CO’s
are still not complying with the requirements of PIC 00-06. As a result, NASA could not
ensure that audit recommendations were resolved in a timely manner or determine that
the resolutions were in NASA’s best interest. For the 24 sampled reports, the DOD
sustained $12.5 million in questioned costs that applied to NASA contracts. However,
CATS II did not contain current and accurate information on any of the reports, so NASA
could not rely on CATS II for reporting purposes. Further, NASA officials were not
aware of the $12.5 million that DOD had sustained on major NASA contracts and
programs (Finding B).


Recommendations. We recommended that NASA improve its procedures for preparing
for, conducting, and documenting negotiations of contract audit questioned costs. We
also recommended that NASA improve its procedures for tracking and monitoring the
resolution of contract audit questioned costs.


Management’s Response. Management concurred with all the recommendations. The
complete text of the response is in Appendix H. We consider management’s proposed or
completed corrective actions responsive.


         .




8
  See Appendix G, “Summary of Prior Coverage” for the three NASA Office of Inspector General audit
reports issued in FY 2000.




                                                 iii
Introduction
Policies and procedures concerning NASA’s contract audit follow-up system are in the
NASA Federal Acquisition Regulation (FAR) Supplement 1842.73019 and the PIC. The
policies and procedures require that the NASA contract audit follow-up system track all
RCA reports and that audit recommendations be resolved as expeditiously as possible,
but within 6 months of the date of the audit report. The NASA FAR Supplement also
requires that when resolution and disposition authority is delegated, NASA CO’s should
at least semiannually review and document in the contract files the status and disposition
of significant audit recommendations. The review and documentation should include
findings with questioned costs.

NASA relies on the DCAA to identify the RCA reports for those contracts for which
NASA retains responsibility for resolution and disposition. The DCAA provides
monthly lists of RCA reports to the NASA Office of Procurement, which forwards the
lists to the NASA Centers for their use in contract audit follow-up. The Centers submit
to the Office of Procurement quarterly status reports on actions taken on the RCA report
recommendations and the targeted dates for resolution and disposition. Records of action
taken on recommendations in the RCA reports are subsequently input into NASA’s
CATS II. For FY’s 1999, 2000, and 2001, NASA CO’s negotiated the resolution of
DCAA audit recommendations, including questioned costs, on 33 incurred cost, claim,
and cost accounting standards audits.

When NASA delegates resolution and disposition authority to the DOD, the DCAA
forwards copies of audit reports to the NASA Center that awarded the contracts included
in the DCAA audits. NASA CO’s are responsible for monitoring the actions taken by
DOD CO’s on NASA’s behalf. NASA’s policy and procedures require the Centers to
report all RCA reports to the NASA Headquarters Office of Procurement on a quarterly
basis so the reports can be input into the CATS II. NASA uses the CATS II, which
should include all RCA reports, to meet the OMB Circular A-50 requirement to track and
promptly resolve audit report findings and to respond to congressional inquiries and
internal reporting requirements. The Headquarters Office of Procurement Audit Liaison
Representative monitors the status of the RCA reports in the CATS II and prepares a
quarterly progress report for the Assistant Administrator for Procurement.

As part of its oversight duties, the NASA Headquarters Office of Procurement conducts
procurement management surveys at NASA installations that address, in part, contract
audit follow-up of the DCAA RCA reports.




9
 NASA FAR Supplement 1842.7301, “NASA External Audit Follow-up System” revised February 20,
2002, provides guidance on audit tracking and resolution.
Findings and Recommendations

Finding A. Low Net Savings Rate for NASA-Negotiated Questioned
           Costs

Where NASA retained resolution and disposition authority for DCAA audit reports,
NASA CO’s achieved a significantly lower net savings of the DCAA-reported questioned
costs than the DOD. Specifically, for 33 audit reports closed during FY’s 1999-2001,
NASA CO’s achieved net savings of only $14.9 million (19.0 percent) of the total $78.6
million in costs questioned. In contrast, for this same period and for the same types of
audit reports, DOD CO’s achieved net savings of 54.4 percent of the DCAA-reported
questioned costs.10 The lower NASA net savings occurred because NASA CO’s did not

         •   establish a negotiation position,
         •   involve the DCAA auditors in the negotiation process,11
         •   adequately document the rationale for not accepting DCAA-reported
             questioned costs, and
         •   promptly resolve questioned costs.

Consequently, in comparison to DOD net savings, NASA did not recover an estimated
additional $28 million12 of DCAA-reported questioned cost over the last 3 years--an
average of $9.3 million13 annually.


OMB, FAR, and NASA Guidance

OMB Circular. OMB Circular A-50, “Audit Followup,” section 5, states:

        Audit follow-up is an integral part of good management and is a shared responsibility of
        agency management officials and auditors. Corrective action taken by management on
        resolved findings and recommendations is essential to improving the effectiveness and
        efficiency of Government operations. Each agency shall establish systems to assure the
        prompt and proper resolution and implementation of audit recommendations. These
        systems shall provide for a complete record of action taken on both monetary and non-
        monetary findings and recommendations.




10
   We obtained the data for the NASA net savings rate from sustained questioned costs from NASA’s
 CATS II. The DCAA provided us the DOD net savings rate information.
11
   DCAA was not invited to participate in negotiations or to evaluate any additional information provided
by the contractors.
12
   We calculated the estimated additional $28 million by applying the difference between the DOD net
savings rate and the NASA net savings rate (54.4 percent minus 19.0 percent equals 35.4 percent) to the
DCAA-reported questioned costs for the 3 years (35.4 percent times $78.6 million equals $27.824 million).
13
   We calculated the average annual $9.3 million by dividing the estimated $27.824 million by 3 years.


                                                    2
OMB Circular A-50 also requires agencies to assign a high priority to the resolution of
audit recommendations and establishes requirements for Agency resolution and
corrective action as follows:

       (2) Require prompt resolution and corrective actions on audit recommendations.
       Resolution shall be made within a maximum of six months after issuance of a final report
       or in the case of audits performed by non-Federal auditors, six months after receipt of the
       report by the Federal Government. Corrective actions should proceed as rapidly as
       possible.

       (5) Provide a means to assure timely responses to audit reports and to resolve major
       disagreements between the audit organization and agency management or contracting
       officials. The process should provide sufficient time to permit resolution to take place
       within the six-month limit.

FAR Guidance. FAR 42.705-1, “Contracting officer determination procedure,”
section b.(4), states:

       (4) The Government negotiating team shall develop a negotiation position. Pursuant to
          10 U.S.C. 2324(f) and 41 U.S.C. 256(f), the contracting officer shall-
            (i) Not resolve any questioned costs until obtaining-
               (A) Adequate documentation on the costs; and
               (B) The contract auditor's opinion on the allowability of the costs.
            (ii) Whenever possible, invite the contract auditor to serve as an advisor at any
            negotiation or meeting with the contractor on the determination of the contractor's
            final indirect cost rates.

In addition, section b.(5) states that the contracting officer shall, among other
things:

       . . . (ii) Prepare a written indirect cost rate agreement conforming to the requirements
               of the contracts;
               (iii) Prepare, sign, and place in the contractor general file (see 4.801(c)(3)) a
               negotiation memorandum covering-
                  (A) The disposition of significant matters in the advisory audit report;
                  (B) Reconciliation of all costs questioned, with identification of items and
                  amounts allowed or disallowed in the final settlement as well as the
                  disposition of period costing or allocability issues;
                  (C) Reasons why any recommendations of the auditor or other Government
                  advisors were not followed; . . . .

NASA Guidance. NASA FAR Supplement 1842.7301, “NASA external audit follow-up
system,” states that audit recommendations should be resolved within 6 months after
receipt of the audit report and should be corrected as expeditiously as possible. The
guidance also states that the identification and tracking of contract audit reports under
NASA cognizance are accomplished in cooperation with the DCAA.




                                                     3
Comparison of NASA Net Savings to DOD Net Savings

In comparison to DOD CO’s, NASA CO’s achieved a significantly lower net savings rate
for the same type of DCAA-questioned costs. For the 3-year period ended September 30,
2001, NASA’s average net savings was only 19.0 percent compared to DOD’s average
net savings of 54.4 percent for incurred cost, claims, and cost accounting standards audit
reports that were closed.14 Further, the NASA net savings rate trend over the last 3 years
has significantly declined as illustrated below:


                                    Comparison of NASA and DOD
                                   Net Savings from Questioned Costs

                              60
                              50
                              40
                    Percent




                              30                                          DOD
                              20                                          NASA

                              10
                               0
                                    FY 1999     FY 2000      FY 2001
                                              Fiscal Years




Factors Contributing to NASA’s Low Net Savings

Several factors contributed to NASA’s low net savings percentage. Each factor is
separately discussed in the following paragraphs:

Negotiation Positions and Negotiation Memorandums. Ten (91 percent) of the 1115
contract files did not contain evidence that the CO’s developed a negotiation position
prior to negotiations as required by the FAR. Further, negotiation memorandums on the
negotiation results either were not in the file or did not describe the rationale for not


14
   We calculated the 3-year average by dividing the total net savings for the 3-year period by the total
questioned costs for the 3-year period (see Appendix C).
15
   NASA negotiated DCAA questioned costs in 33 audit reports during FY’s 1999, 2000, and 2001. We
selected for a detailed analysis a sample of 11 of the 19 audit reports that were negotiated during FY 2001.
The sampled audit reports included three at Johnson Space Center, Houston, Texas; three at Glenn
Research Center, Cleveland, Ohio; three at the Jet Propulsion Laboratory, Pasadena, California; and two at
Marshall Space Flight Center, Huntsville, Alabama. See Appendix C for details on the reports by fiscal
year and for information on the FY 2001 reports that we analyzed.


                                                       4
sustaining questioned costs in 9 (82 percent) of the 11 contract files reviewed. The
negotiation position is important to help guide the CO’s negotiations with the contractor.
The negotiation memorandum is needed to document the CO’s decisions and to enable
reviewers or future CO’s to understand the rationale for and the reasonableness of the
decisions reached. Further, the negotiation memorandum should provide a reconciliation
of all questioned costs and explanations of why the CO did not follow the DCAA
recommendations and sustain the questioned costs.

Use of DCAA Auditors. NASA procurement officials at Glenn Research Center
(Glenn), Jet Propulsion Laboratory (JPL), Johnson, and Marshall did not effectively
involve the DCAA auditors in the negotiation process for all 11 reports reviewed. NASA
procurement officials did not comply with FAR 42.705-1, which requires CO’s to obtain
adequate documentation on the costs and the contract auditor’s (that is, DCAA’s) opinion
on the allowability of the costs before resolving questioned costs. Further, we found no
evidence that NASA CO’s invited the DCAA auditors to serve as advisors at negotiations
whenever possible. DCAA auditors involved in the subject audits told us that for 9 (82
percent) of 11 reports sampled, the DCAA auditors did not agree with the NASA CO’s
decision regarding the resolution of questioned costs. The DCAA audit supervisors and
auditors stated that NASA CO’s did not ask the supervisors or auditors to attend
negotiations or to review subsequent data provided by the contractor in response to
DCAA-reported questioned costs. The DCAA audit supervisors and auditors also stated
that DOD CO’s use the DCAA auditors at negotiations at most of the major contractors.
During FY 2001, the DCAA’s participation at negotiations, primarily for DOD CO’s,
totaled 55,886 hours.16

NASA CO’s Disagreed with DCAA-Reported Questioned Costs. NASA CO’s or their
representatives disagreed with all or part of the DCAA-questioned costs in all 11 reports
sampled. For 9 (82 percent) of the 11 audit reports, the CO’s or their representatives did
not adequately support in the contract files their rationale for such disagreements. In
addition, we found no evidence that NASA obtained the DCAA auditors’ opinions on the
reasons the CO’s or their representatives gave for not sustaining the questioned costs.
The following examples illustrate these weaknesses:

     •   At Glenn, NASA sustained only $195,851 (11.6 percent) on total questioned costs
         of $1.7 million for three DCAA audit reports. A price analyst, who had a CO
         warrant to enable him to settle contract audit questioned costs, conducted the
         negotiations. NASA procurement officials did not prepare a negotiation position,
         and the negotiation memorandum did not adequately explain the reasons the price
         analyst did not follow the DCAA auditor’s recommendations.

     •   At JPL, NASA sustained only $58,800 (4.3 percent) on total questioned costs of
         $1.37 million for three DCAA audit reports. NASA procurement officials did not
         develop a negotiation position for all questioned costs, and the negotiation

16
  A DCAA headquarters representative provided us this data on the DCAA’s participation at negotiations.
The DCAA does not maintain separate statistics for NASA.


                                                   5
         memorandums were so inadequately documented that we could not determine
         why the DCAA auditor’s recommendations were not followed. In addition, the
         negotiation memorandums did not include a reconciliation of all questioned costs,
         and we could not identify items and amounts sustained or not sustained in the
         final settlement. The FAR requires that negotiation memorandums include a
         reconciliation of all costs questioned, with identification of items and amounts
         allowed or disallowed in the final settlement, and the reasons any recommen-
         dations made by the DCAA auditor were not followed.


Timeliness in Resolving Recommendations. During FY 2001, NASA procurement
officials did not meet the 6-month timeframe in resolving the DCAA-reported questioned
costs for 17 (89 percent) of the total 19 negotiated reports. NASA’s sustention rates17 for
questioned costs dropped significantly when resolutions of the audit recommendations
were delayed. The following table shows NASA’s sustention rates for FY 2001 based on
the length of time to resolve questioned costs.

                        NASA Sustention Rates on Questioned Costs
                                   (Costs in millions)

                                                                                       Sustention
                          Number of            Costs                  Costs                Rate
     Age of Report         Reports           Questioned             Sustained          (Percentage)
          (a)                (b)                (c)                    (d)                 (d/c)

Less than 6 months              2               $ .402                $ .357                 88.8
6 months to 1 year              4                 .984                  .358                 36.4
1 to 2 years                    6                2.340                  .447                 19.1
More than 2 years               7               26.957                 2.443                  9.1


By comparison, a review by the Department of Defense Inspector General (DODIG)18
showed a similar reduction in sustention rates over time. DOD CO’s sustained a
significantly higher percentage (97 percent) of costs questioned for reports settled within
1 year compared to the percentage (33.5 percent) for those that were more than 2 years
old. Appendix D summarizes the DOD sustention rates of questioned costs as presented
in the DODIG report.




17
   The sustention rate is calculated by dividing the questioned cost sustained by the questioned cost. As
defined in DOD Directive 7640-2, questioned costs sustained means that portion of costs questioned by the
auditor upheld as a result of actions taken by either the contractor or the contracting officer during
negotiations.
18
   DODIG Audit Report No. 00-03, “The Air Force Contract Audit Followup System,” dated October 4,
1999, addressed the effect that delays in negotiating questioned costs had on the sustention rate.


                                                    6
While delays in negotiating questioned costs are sometimes unavoidable, resolving audit
issues in a timely manner could result in higher sustention rates of questioned costs.
NASA could improve its potential for sustained costs by minimizing processing delays
based on the higher sustention rate for audit reports closed within 1 year. By settling
reports in a timelier manner, CO’s may be able to sustain a significantly higher
percentage of future DCAA-reported questioned costs.

Procurement Management Surveys. The NASA Headquarters Office of Procurement
conducts periodic procurement management surveys of NASA Centers to monitor the
effectiveness of internal controls over the procurement process. The surveys cover
procurement management contracting officer activities including contract audit
follow-up.

From 1999 through 2001, the Office of Procurement conducted procurement
management surveys at the Centers where we performed detailed audit work.19 While
the survey reports covered the tracking of RCA reports and the timely resolution of audit
recommendations, the reports did not address the effectiveness in resolving and
implementing audit recommendations, including questioned costs, by Center CO’s.


Conclusion

NASA spent a total of $50.4 million during FY’s 1999 through 2001 on DCAA reviews
as a critical oversight control on major NASA contracts and programs. In our opinion,
NASA did not effectively use such reports for which costs were questioned. By taking
more aggressive action in negotiating DCAA-questioned costs, NASA can increase the
amount of questioned costs sustained by millions of dollars. If NASA’s sustained
questioned cost rates were similar to the rates for DOD, NASA would have recovered an
additional $28 million of DCAA-reported questioned costs over the last 3 years, or an
average of $9.3 million annually.


Recommendations, Management’s Response, and Evaluation of
Response

We recommend that the Assistant Administrator for Procurement:

        1. Require CO’s to develop and document a negotiation position prior to
negotiations; involve knowledgeable DCAA auditors in the negotiation process and
in the review of any data provided by the contractor in response to the DCAA
report; fully describe in a negotiation memorandum the reasons the DCAA audit
recommendations were not followed; and reconcile all questioned costs with the
identification of items and amounts allowed or disallowed.


19
     See Scope and Methodology in Appendix A for the Centers where we performed detailed audit work.


                                                    7
Management’s Response. Concur. The Office of Procurement agreed to issue a PIC by
October 31, 2002, reminding the CO’s of DCAA’s responsibility in the development of
the negotiation position and the subsequent negotiations. Management stated that the
existing FAR and NASA FAR Supplement language address several of the points made
by this recommendation, but did not address DCAA’s involvement in the actual
negotiations. The complete text of management’s response is in Appendix H.


Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but will remain undispositioned
and open until the agreed to corrective action is completed.


       2. Include in procurement management surveys an assessment of the
adequacy of the negotiation documentation related to the resolution of DCAA
questioned costs, the timeliness of the resolution of audit recommendations, and the
net savings percentage on reported questioned costs.


Management’s Response. Concur. For future procurement management surveys, the
Office of Procurement directed procurement survey teams to assess the adequacy of the
negotiation documentation related to the resolution of DCAA questioned costs, the
timeliness of the resolution of audit recommendations, and the net savings percentage on
reported questioned costs. Management noted that CO’s will not always agree with
DCAA questioned costs. When disagreements occur, the procurement survey teams will
determine whether the disagreements were addressed in the pre-negotiation objective the
CO developed (see Appendix H).


Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation. The recommendation is resolved and dispositioned and will be closed
for reporting purposes with the issuance of this report.




                                           8
Finding B. Monitoring Delegated Resolution Authority

NASA CO’s did not adequately monitor the DCAA RCA reports on major NASA
contractors when NASA delegated20 resolution and disposition authority to the DOD.
Specifically, the NASA CATS II did not include records for 24 sampled DCAA RCA
reports covering major NASA contractors for which NASA delegated resolution and
disposition authority to the DOD. This occurred because NASA procurement personnel
did not comply with OMB Circular A-50 and NASA guidance for coordinating with
DOD CO’s and for reporting RCA reports to the NASA Office of Procurement when
reports were received and because NASA did not receive some reports. As a result,
NASA could not ensure that audit recommendations were resolved in a timely manner or
that the resolutions were in NASA’s best interest. Additionally, the CATS II was not
accurate because it had no records on sustained questioned costs of about $12.5 million
(from a total of $19.0 million). Further, NASA personnel were not aware of the $12.5
million in questioned costs that DOD had sustained on major NASA contracts and
programs.


OMB and NASA Far Supplement Guidance

OMB Circular. OMB Circular A-50 requires that agencies establish contract audit
follow-up systems to assure the prompt and proper resolution and implementation of
audit recommendations. The systems must maintain complete records of action taken on
both monetary and nonmonetary recommendations. In addition, the Circular states that
agencies should “maintain accurate records of the status of audit reports or
recommendations through the entire process of resolution and corrective action.” The
Circular objectives are to emphasize the importance of monitoring the implementation of
resolved audit recommendations in order to assure that promised corrective action is
actually taken and to improve accounting and collection controls over amounts due the
Government.

NASA FAR Supplement. NASA FAR Supplement 1842 requires NASA CO’s to
maintain a dialogue with DOD CO’s who have been delegated activities on NASA
contracts. The NASA CO’s are required to conduct a review of the DOD CO’s contract
files no less frequently than semiannually and to document in the NASA contract files the
status and disposition of significant DCAA audit recommendations. In addition, NASA
FAR Supplement 1842.7301 states:

         All reportable contract audit reports as defined by Chapter 15, Section 6, of the DCAA
         Contract Audit Manual (CAM) shall be reported quarterly to the Headquarters Office of
         Procurement (Code HK); . . . .




20
  At the time of contract award, the CO prepares a letter of contract administration delegation detailing the
general and special contract administration functions being delegated and forwards the delegation letter to
the cognizant DOD contract administration office.


                                                      9
NASA PIC. PIC 00-06, dated May 30, 2000, incorporates the DCAA definition of RCA
reports. The PIC states that procurement personnel who receive an RCA report directly
from DCAA should immediately report the receipt of the RCA report to the NASA
Center point of contact for DCAA21 for inclusion in the NASA CATS II. Further, the
PIC states that it is essential that NASA CO’s maintain a dialogue with DOD CO’s as
required by NASA FAR Supplement 1842.7301 and that NASA CO’s should document
their files of any action taken by the DOD CO or should include documentation provided
by the DOD in the NASA contract file.


NASA Monitoring of Delegated Resolution and Disposition Authority

NASA delegated to the DOD the authority for resolution and disposition of the audit
recommendations in the 24 RCA reports we reviewed (see Appendix E for the individual
reports). NASA received 1422 of the 24 reports. For the other 10 reports, NASA was not
listed as an addressee, and the NASA CO’s did not identify the RCA reports by
maintaining a dialog with the DOD CO’s which is required by the NASA FAR
Supplement. In addition, the NASA CO’s did not monitor the status and resolution of the
audit recommendations in the 14 RCA reports received.23 Therefore, NASA had no
knowledge of about $12.5 million that DOD sustained on NASA contracts that involved
NASA major contractors and programs. Further, contract files did not contain
documentation on the resolution of the reports, and CO’s were unaware of DOD actions
that affected their contracts for the 24 reports.

For the 24 reports, the DCAA questioned $94.2 million, including $19.0 million that
related to NASA contracts. DOD CO’s sustained $12.5 million in questioned costs that
related to the NASA contracts. The questioned costs and amounts sustained follow:




21
   The Center point of contact for DCAA is the NASA employee that is responsible for updating and
maintaining the CATS II at each center.
22
   DCAA erroneously sent three reports that addressed Goddard contracts with the California Institute of
Technology to the JPL NASA Management Office. The JPL NASA Management Office did not forward
the reports to Goddard and did not enter the RCA report into CATS II.
23
   Two of the 14 audit reports received by NASA were sent to the Marshall Procurement Office. At the
time of our review, the Marshall contracts covered by the RCA reports were closed, and the contract files
had been sent to storage. Consequently, Marshall procurement officials told us they could not reasonably
retrieve the contract files to determine whether they contained documentation of coordination with the
DOD ACO’s.


                                                    10
                    FY 2001 Questioned and Sustained Costs* for Audit
                   Reports where NASA Delegated Resolution Authority
                                  (Dollars in millions)
                                                          NASA                                   NASA
                  Number            Total                Share of              Total            Share of
     NASA           of                                                       Sustained         Sustained
     Center       Reports
                                  Questioned            Questioned             Costs             Costs
                                      Costs               Costs
Goddard               11            $38.5                $ 9.7                $24.8              $ 5.7
Johnson                6             19.4                  7.1                 10.2                5.8
Marshall               7             36.3                  2.2                 19.3                1.0
 Total               24             $94.2                $19.0                $54.3              $12.5

*
  Costs in this table represent the questioned and sustained costs, by NASA Center, for the DCAA audit
reports negotiated in FY 2001 for contracts for which NASA delegated resolution and disposition authority
to the DOD.

Major Contractors with Significant Program Dollars. Twenty of the 24 reports
involved NASA contractors that ranked in the top 20 of all NASA contractors based on
contract dollars (see Appendix F). The 24 DCAA audit reports describe NASA
contractors working on major NASA programs that involved significant contract dollars:

      •   One report, with total questioned costs of $7.9 million, involved a contractor
          working on the International Space Station Propulsion Module Project.

      •   One report, with total questioned costs of $5.9 million, involved a contractor
          working on maintenance of Space Shuttle engines.

      •   One report, with total questioned costs of $1.6 million, involved a $1.0 billion
          contract for Earth Observing System data.

Previously Reported Similar Conditions. We previously reported similar conditions in
four NASA Office of Inspector General audit reports issued since FY 1998 (see
Appendix G for a synopsis of conditions in prior reports).24 As a result of the prior
reviews, the NASA Office of Procurement issued PIC 00-06, dated May 30, 2000. The
PIC provided additional guidance to ensure NASA compliance with the NASA FAR
Supplement Part 1842 and OMB Circular A-50.

Following NASA Guidance

CATS II Tracking. The NASA Center point of contact for DCAA did not notify the
NASA Office of Procurement about RCA reports for contracts where NASA had
delegated to the DOD the authority to resolve and disposition contract audit findings.
Therefore, the reports were not entered into the CATS II system. NASA uses CATS II to

24
  GAO report GAO/NSIAD-94-229, September 30, 1994, also cited NASA for not adequately monitoring
audits resolved by the DOD.


                                                   11
monitor the resolution and disposition of audit recommendations, including DCAA
contract audit questioned costs. Data entered into CATS II on RCA reports for which
resolution and disposition authority had been delegated to the DOD would serve as an
internal control to prompt NASA CO’s to follow up with the DOD and to document the
resolution of such reports in the contract files.

Procurement Management Surveys. During 2000 and 2001, the NASA Headquarters
Office of Procurement conducted Procurement Management Surveys at the NASA
Centers that had delegated to the DOD authority for the resolution and disposition of
contract audit findings, including questioned costs. However, the survey reports did not
address the effectiveness of the CO’s monitoring of the delegated authority. Including
assessments of such monitoring in Procurement Management Surveys would help focus
attention on the need for NASA Centers to report all RCA reports to Headquarters and
for NASA CO’s to coordinate with the DOD CO’s and to document the disposition of
significant audit findings in the contract files.

Conclusion

Although NASA spent a total of $50.4 million on DCAA audits during FY’s 1999
through 2001, NASA did not get the full benefit from the DCAA RCA reports for which
NASA delegated resolution and disposition authority to the DOD. NASA has overall
responsibility for managing its contracts, and NASA CO’s should maintain better
oversight of contract audit activities. NASA had no knowledge of about $12.5 million
that DOD sustained on NASA contracts that involved NASA major contractors and
programs. NASA Centers should more effectively monitor and report to NASA
headquarters RCA reports for which significant dollars are questioned to ensure prompt
and proper tracking and reporting to meet OMB circular requirements and to respond to
congressional inquiries.


Recommendations, Management’s Response, and Evaluation of
Response

We recommend that the Assistant Administrator for Procurement:

       3. Remind procurement personnel to report to NASA Headquarters all
DCAA RCA reports on NASA contracts for which resolution authority was
delegated to DOD.


Management’s Response. Concur. On July 31, 2002, the Director of DCAA met with
the Assistant Administrator for Procurement. They agreed that in addition to the monthly
list of RCA reports DCAA currently provides, DCAA would include any report
administered by DOD for which the impact of questioned costs to NASA exceeds the
RCA threshold. This would ensure that questioned costs exceeding the RCA threshold



                                           12
are in the NASA tracking system and that NASA officials review the status. DCAA will
determine how the monthly reporting will be implemented. The complete text of
management’s response is in Appendix H.


Evaluation of Management’s Response. Management’s action is fully responsive to
the recommendation. The recommendation is resolved but will remain undispositioned
and open until DCAA begins providing the agreed-upon monthly reports.


       4. Require procurement management surveys to include an assessment on
whether NASA CO’s reviewed DOD CO contract files semiannually, reported to
NASA Headquarters all RCA reports, and documented contract files on the
disposition of significant DCAA audit recommendations as required by NASA FAR
Supplement 1842 and NASA PIC 00-06.


Management’s Response. Concur. For future procurement management surveys the
Office of Procurement directed procurement survey teams to determine whether CO’s
documented the contract files for actions taken by administrative CO’s on NASA’s
behalf and included any documentation provided by administrative CO’s in the contract
files (see Appendix H).


Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. The recommendation is resolved and dispositioned and will be closed
for reporting purposes.




                                          13
                    Appendix A. Objective, Scope, and Methodology

Objective

The overall objective of the audit was to evaluate the adequacy of NASA’s contract audit
follow-up system on Defense Contract Audit Agency (DCAA) audit reports. Specifically, we
determined whether:

     •   NASA’s audit follow-up activities ensured the prompt and effective resolution and
         disposition of contract audit findings and recommendations, including the recording of
         action taken on all recommendations, and that the follow-up activities were in
         compliance with Office of Management Budget (OMB) Circular A-50.

     •   Contracting officers (CO’s) obtained an adequate sustention rate on the settlement of
         DCAA-reported questioned costs.

     •   The NASA corrective action tracking system (CATS II) and the semiannual report
         contained current and accurate information on all applicable DCAA audit reports and
         subsequent settlement activities.


Scope and Methodology

The NASA Office of Inspector General is responsible25 (1) to review NASA’s policy for
obtaining contract administration and audit services, including those from the DCAA, and (2)
to evaluate NASA’s follow-up system and specific categories of contract audit work
performed in connection with NASA programs.

We performed the detailed audit work at NASA Headquarters, Washington, D.C.; Glenn
Research Center, Cleveland, Ohio; the Jet Propulsion Laboratory, Pasadena, California;
Johnson Space Center, Houston, Texas; and Marshall Space Flight Center, Huntsville,
Alabama. We requested contract audit follow-up documentation from Goddard Space Flight
Center, Greenbelt, Maryland. We reviewed OMB Circular A-50 requirements; Federal
Acquisition Regulation (FAR) Part 42-705-1 requirements; and NASA’s policies, including
NASA FAR Supplement 1842.73 and Procurement Information Circular 00-06, and other
agencies’ policies referenced in NASA guidelines, such as Department of Defense (DOD)
Directive 7640.226 and the DCAA Contract Audit Manual. We interviewed NASA CO’s to
determine whether audit recommendations were resolved and dispositioned promptly and




25
   The Inspector General Act of 1978 assigns responsibility for reviewing Agency policies and operations to the
Inspectors General.
26
   DOD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,” August 16, 1995, contains DOD
guidance for resolving contract audit findings and questioned costs.


                                                    14
                                                                                Appendix A

effectively. We also interviewed the NASA representatives in charge of the contract audit
follow-up system at the Centers we visited and NASA Headquarters officials in the Office of
Procurement.

To determine whether NASA’s follow-up activities ensured the prompt and effective
resolution and disposition of contract audit findings and recommendations, we selected two
samples:

   •   We reviewed the CATS II listing of 33 DCAA reportable contract audit reports for
       which NASA retained resolution and disposition authority. The DCAA audit reports
       contained questioned costs (excluding operations audits) that NASA negotiated during
       FY’s 1999, 2000, and 2001. Nineteen of the 33 audit reports were closed in FY 2001,
       and we judgmentally selected 11 reports for a detailed analysis, including interviews
       of NASA and DCAA personnel.

   •   For DCAA reports that NASA delegated resolution and disposition authority to the
       DOD, we reviewed 24 DCAA reports with questioned costs of more than $200,000
       each. We selected the reports from a DCAA-provided list of audit reports negotiated
       during FY 2001.


Use of Computer-Generated Data

We obtained computer-generated data from the NASA CATS II database and tested the data
by comparing it to source documents for the sampled DCAA reportable contract audit (RCA)
reports. The tests showed errors in the information regarding the resolution of questioned
costs in DCAA RCA reports for which NASA retained resolution and disposition authority.
The tests also showed the lack of any information on DCAA reports for which NASA
delegated resolution and disposition authority to the DOD.


Management Controls

We examined NASA policies and procedures concerning the contract audit follow-up system.
We also reviewed NASA practices to track RCA reports and to follow up on audit
recommendations for timely resolution and disposition.

We considered management policies and procedures to be adequate. However, controls need
to be strengthened to ensure that NASA (1) obtains a higher net savings rate on the DCAA-
reported questioned costs (Finding A) and (2) monitors the DCAA RCA reports for which
NASA has delegated resolution and disposition authority to the DOD (Finding B).




                                           15
Appendix A

Audit Field Work

We performed the audit work from November 2001 through April 2002. We conducted the
audit in accordance with generally accepted government auditing standards.




                                       16
                  Appendix B. Reportable Contract Audit Reports

The Defense Contract Audit Agency Contract Audit Manual 7640.1, Volume 2, Chapter 15,
defines reportable contract audit reports:

             1.   Those reports containing findings and recommendations, whether or not the
                  findings are qualified, covering estimating system surveys, accounting and
                  related internal control system reviews, defective pricing reviews, and cost
                  accounting standards (CAS) matters. (Reports containing only favorable
                  findings and recommendations, such as CAS reports recommending that a
                  contractor’s proposed accounting change be approved, or estimating system
                  surveys that only contain “suggestions for improvements” are not
                  reportable.)

             2.   Those reports covering operations audits, incurred costs, settlement of final
                  indirect cost rates, final pricing submissions, termination settlement
                  proposals, and claims if reported costs or rates questioned or
                  unsupported/qualified equal $100,000 or more.

             3.   Reports on audit-determined final indirect cost rates and Form(s) 1, to the
                  cognizant Administrative Contracting Officer (ACO) when the auditor
                  cannot reach an agreement with the contractor.




                                                17
Appendix C. Audit Reports for Which NASA Negotiated Final Settlement



                                  Summary by Fiscal Year
               Fiscal  No. of          Questioned         Sustained Sustention
               Year   Reports             Costs            Costs 1     Rate 2
              __(a)__ ___(b)__         ____(c)____       ____(d)____ ___(d/c)__

               1999          7          $23,370,391      $ 6,376,230       27.3

               2000          7           24,530,600         4,925,316      20.1

               2001         19           30,683,216         3,605,379      11.8

             Totals         33         $78,584,207       $14,906,925       19.0
    1
      Sustained cost is that portion of costs questioned by the Defense Contract Audit Agency auditor
    upheld as a result of actions taken by either the contractor or the contracting officer.
    2
      We calculated the sustention rate by dividing the sustained cost by the questioned cost.

    (See next page for details on audit reports reviewed in fiscal year 2001.)




                                                18
                                                                                                 Appendix C

                                                  Fiscal Year 2001
                                   Defense Contract Audit Agency (DCAA) Reports 1

                                                                                    As Adjusted 2
      Report            Report                             NASA         Questioned      Sustained      Percent    Reviewed
     Number              Date             Contractor       Center 3        Costs          Cost s      Sustained   by OIG 4
1301-97M10250026      05/25/1999     Analex Corp.           GRC          $ 392,453       $ 111,146     28.32      Yes
1301-99M10250029      05/28/1999     Analex Corp.           GRC            1,016,702        83,146      8.18      Yes
1301-98M10100002      09/15/2001     Analex Corp.           GRC              279,406         1,559      0.56      Yes
1701-97J10100080      06/01/2001     D. Thigpen & Assoc.    GRC              288,000       288,000    100.00      No
1701-94J17900002      03/09/2000     Sverdrup Tech.         GRC              115,633        61,285     53.00      No
1681-93A16990006      05/28/1993     Sverdrup Tech.         GRC              293,293       293,293    100.00      No
1681-94J16990014      05/31/1994     Sverdrup Tech.         GRC               29,468              0     0.00      No
1681-94J16990013      09/27/1994     Sverdrup Tech.         GRC              476,684       455,907     95.64      No
1701-93J10100453      05/03/2000     Sverdrup Tech.         GRC              291,453       285,134     97.83      No
6121-99T10150201      06/25/1999     Raytheon STX           GSFC             158,065       158,065    100.00      No
4901-98J101500015     06/29/1999     CalTech6               JPL              523,804        32,064      6.12      Yes
                5
4901-98J10100603      12/07/1999     CalTech                JPL              544,451        16,896      3.10      Yes
4901-99J101100015     06/29/2000     CalTech                JPL              297,265         9,840      3.31      Yes
3521-99M10250003      09/25/1999     Northrop Grumman       JSC              494,000        94,000     19.03      Yes
3521-92D19200001      07/29/1994     Rockwell Co.           JSC           24,234,014     1,500,000      6.19      Yes
3521-95D10250026      09/30/1996     Stellacom, Inc.        JSC              514,264              0     0.00      Yes
1661-01B17200002      02/26/2001     Riggins Co., Inc.      LaRC             114,348        69,466     60.75      No
1211-96A10250003      07/28/1999     Micro Craft Inc.       MSFC             383,104        78,972     20.61      Yes
1211-96A10250004      07/30/1999     Micro Craft Inc.       MSFC             236,809        66,606     28.13      Yes
               Totals                19 Reports                          $30,683,216    $3,605,379     11.75       11

1 DCAA audit reports resolved by NASA procurement personnel during fiscal year 2001.
2 We adjusted the amounts shown for questioned costs and sustained costs based on a review of NASA’s
contract files and the DCAA audit reports.
3
  NASA Centers:
          GRC       Glenn Research Center
          GSFC Goddard Space Flight Center
          JPL       Jet Propulsion Laboratory
          JSC       Johnson Space Center
          LaRC Langley Research Center
          MSFC Marshall Space Flight Center
4
  The NASA Office of Inspector General reviewed the DCAA reports.
5
  DCAA also questioned a total of $653,454 of direct material costs in these three reports on JPL. The primary
issue in question was the allocation of the costs among NASA projects and not the allowability of the costs.
Therefore, we did not include those questioned costs in our analysis.
6
  California Institute of Technology.




                                                     19
Appendix D. Department of Defense Inspector General (DODIG) Review of
            Sustention Rates on Questioned Costs*


We obtained the information below from DODIG Audit Report No. 00-03, “The Air Force
Contract Audit Followup System,” dated October 4, 1999. We performed a similar review on
NASA’s sustention rates (see table “NASA Sustention Rates on Questioned Costs” on page 6
of this report).


                                           (Costs in millions)

                    Number of           Costs             Costs           Sustention
Age of Report        Reports          Questioned        Sustained         Percentage
1 year or less*        23              $ 56.3            $54.6               97.0
1 to 2 years           13                 3.7              3.0               81.1
Over 2 years           25                67.8             22.7               33.5


* The DODIG Audit Report did not provide statistics for reports resolved within 6 months.




                                          20
                                  Appendix E. Reportable Contract Audit Reports for Which NASA
                                              Delegated Resolution and Disposition Authority
                                                                            Fiscal Year 2001
                                                                           (Dollars in Thousands)

                                                                                                                               NASA                            NASA
                                                                                                               Total          Share of         Total          Share of
                                Report       Resolution                                             NASA     Questioned      Questioned      Sustained       Sustained
            Report Number        Date          Date        Contractor                               Center     Cost             Cost           Cost             Cost
                                                                                                      1

         4901-1995H10150025     09/29/95    02/06/01       Aerojet General Corp.                    GSFC          $ 392           $ 200         $ 383             $ 195
         3121-1998H10100058     06/30/00    09/27/01       Ball Aerospace & Technology Corp.        GSFC           2,184             808             0                 0
         6151-1995H10250021     09/29/95    12/29/00       Orbittal Science Corp.                   GSFC             878             365             0                 0
         6121-1998U10250941     05/28/98    03/13/01       Raytheon Information Systems             GSFC           1,574           1,574         1,097             1,097
         6121-1998U10250006     09/23/98    03/13/01       Raytheon Information Systems             GSFC             647             647             0                 0
         2901-1999B10250003     07/09/99    09/30/01       Raytheon Systems Co.                     GSFC           2,141             535         1,584               396
         2901-1998A10250017     09/30/98    09/30/01       Raytheon Systems Co.                     GSFC           1,465             270         1,465               270
         4291-1999J10150001     06/30/99    03/21/01       Space Systems Loral Inc.                 GSFC             460             437           209               198
         4901-1999P10100248     06/29/00    12/29/00       California Institute of Technology       GSFC          11,059           2,621         6,176             1,463
         4901-1998P10150001     06/29/99    03/09/01       California Institute of Technology       GSFC           9,786             431         6,218               273
         4901-1998P10100248     12/23/99    12/29/00       California Institute of Technology       GSFC           7,904           1,873         7,639             1,810
         4181-1999V10150002     07/30/99    06/14/01       Allied Signal Aerospace Co.              JSC              894             617           894               617
21




         4381-1998C10150001     07/06/98    09/28/01       Boeing Co. – BD&S Group                  JSC            7,901             869           812                89
         4381-1999C10150001     04/30/99    09/28/01       Boeing Co. – BD&S Group                  JSC            2,585             284           941               104
         3521-2000D17900006     09/27/00    04/04/01       Boeing Co. – S&D Systems                 JSC              213             213             0                 0
         4701-1998L10150001     09/21/98    09/13/01       Boeing North America - Rocketdyne        JSC            5,974           4,164         5,909             4,119
         3421-1999D10150001     07/16/99    09/30/01       McDonnell Douglas Corp.                  JSC            1,797             952         1,618               858
         4291-1998U10150001     09/29/99    05/09/01       United Tech. Corp. – CSD                 MSFC           5,502             242         4,422               195
         3121-1996K10150001     09/20/96    04/18/01       Lockheed Martin Corp.2                   MSFC           9,197             276         1,961                59
         3121-1997K10150002     09/25/97    04/18/01       Lockheed Martin Corp.2                   MSFC           6,113             330         3,469               187
         3121-1997K10150004     03/27/98    04/18/01       Lockheed Martin Corp.2                   MSFC           6,413             346         5,077               274
         3121-1997K10150003     06/25/98    04/18/01       Lockheed Martin Corp.2                   MSFC           8,247             445         4,384               237
         1461-1995S17900625     10/10/95    03/14/01       Lockheed Martin Information Systems2     MSFC             237             237             0                 0
         2261-1999B10250007     03/31/99    06/07/01       Moog, Inc.                               MSFC             632             295             0                 0
          Totals   24 Reports                                                                                    $94,192         $19,031       $54,258           $12,439


     1
       NASA Centers:
             GSFC Goddard Space Flight Center
             JSC       Johnson Space Center
             MSFC Marshall Space Flight Center
     2
       A Marshall procurement official told us that the NASA contracting officer (CO) for Marshall’s principal contract, NAS8-36200, with Lockheed Martin
     maintains a regular dialog with the Department of Defense (DOD) administrative contracting officer. Nevertheless, the NASA CO was unable to determine
     whether the DOD administrative CO advised NASA about these audit reports.
                        Appendix F. Major NASA Contractors



                                         Fiscal Year 2001

                                                      No. of
                                                     Reports                            Contract Dollars
              Contractor                            in Sample         Ranking 1           (in millions)
           Boeing Co.                                   3                 2                   $1,658.5
           California Institute of Technology           3                --2                   1,451.7
           Lockheed Martin Corp.                        5                 3                      608.3
           Boeing North American, Inc.                  1                 6                      303.6
           McDonnell Douglas Corp.                      1                 7                      282.2
           Raytheon Information Systems Co.             4                11                      127.7
           United Technologies Corp.                     1               16                       89.1
           Ball Aerospace & Technology Corp.             1               19                       80.9
           Orbital Science Corp.                         1               20                       74.4
           Aerojet General Corp.                         1               36                       35.3
           Space Systems Loral Inc.                      1               66                       13.6
           Moog, Inc.                                    1               99                         7.3
           Allied Signal Aerospace Co.                   1               --                         5.1
           Total                                       24                                     $4,737.7

           Total NASA Procurements FY 2001                                                   $12,748.1


1
  The source of information for ranking the top 100 NASA contractors is the NASA Annual Procurement
Report for Fiscal Year 2001.
2
  The California Institute of Technology (CalTech) is an educational institution that has a NASA contract
to operate the Jet Propulsion Laboratory for NASA. We included CalTech on the list because of the
significant contract dollars.




                                                    22
                  Appendix G. Summary of Prior Coverage
The NASA Office of Inspector General and the U.S. General Accounting Office (GAO)
have issued reports related to the use of audit services provided by the Defense Contract
Audit Agency (DCAA) and to NASA's contract audit follow-up system. The reports are
summarized below. Copies of the NASA reports are available at
http://www.hq.nasa.gov/office/oig/hq/audits.html.

NASA Office of Inspector General (OIG)

“NASA Settlement of DCAA’s Incurred Cost Audits at Goddard Space Flight
Center,” Report Number IG-00-046, September 18, 2000. The follow-up system did
not include complete records of actions taken on the DCAA reportable contract audit
(RCA) reports delegated to the Department of Defense (DOD) contracting officers
(CO’s) for resolution and disposition. As a result, Goddard Space Flight Center
procurement personnel could not ensure that the DCAA audit recommendations were
resolved in a timely manner and that the resolutions were in NASA’s best interest. We
identified a similar finding during our follow-up system audits at Marshall Space Flight
Center and Johnson Space Center (Report Number IG-00-010, March 6, 2000, and IG-
00-032, May 19, 2000).

“NASA Contract Audit Follow-up System at Johnson Space Center,” Report
Number IG-00-032, May 19, 2000. The follow-up system did not include complete
records of actions taken on the DCAA audit reports delegated to the DOD CO’s for
resolution and disposition. As a result, Johnson procurement personnel could not ensure
that the DCAA audit recommendations were resolved in a timely manner and that the
resolutions were in NASA’s best interest. We identified a similar finding during our
audit of the NASA contract audit follow-up system at Marshall (Report Number
IG-00-010, March 6, 2000). Also, Johnson procurement personnel did not track and
report certain DCAA RCA reports and did not resolve or disposition the DCAA-reported
audit recommendations within 6-months after report issuance pursuant to Office of
Management Budget (OMB) Circular A-50. Consequently, the DCAA audit
recommendations were not resolved in a timely fashion, and NASA funds that should
have been disallowed, withheld, or reduced could not be reallocated to other NASA
programs. Management concurred with the two recommendations and issued
Procurement Information Circular 00-06 and a letter to the Team Leader, Procurement
Management Survey Team, to include the “Audit Follow-up Process” in all future
procurement surveys.




                                            23
Appendix G

“NASA Contract Audit Follow-up System at Marshall Space Flight Center,” Report
Number IG-00-010, March 6, 2000. The follow-up system did not include complete
records of actions taken on the DCAA RCA reports delegated to DOD CO’s for
resolution and disposition. As a result, Marshall procurement personnel could not ensure
that the DCAA audit recommendations were resolved in a timely manner and that the
resolutions were in NASA’s best interest. Also, Marshall procurement personnel did not
track and report certain DCAA RCA reports and did not resolve the DCAA-reported
audit recommendations within 6 months after report issuance pursuant to OMB Circular
A-50. Consequently, the DCAA audit recommendations were not resolved in a timely
fashion, and NASA funds that should have been disallowed, withheld, or reduced could
not be reallocated to other NASA programs. Management concurred with the four
recommendations.

“Review of NASA’s Use of Audit Services Provided by the Defense Contract Audit
Agency,” Report Number P&A-98-001, September 30, 1998. NASA needed to
improve its oversight of the use, benefits, and effectiveness of DCAA services. Also,
NASA’s audit follow-up system needed improvement to ensure that all reports, including
those delegated to DOD for resolution and disposition, were properly accounted for and
resolved. The NASA Centers did not have a centralized point to receive and track audit
reports, and NASA did not monitor the status of the DCAA audit reports delegated to
DOD for resolution and disposition. NASA CO’s were often not informed by the DOD
CO’s of the actions taken that affected NASA contracts. Consequently, NASA could not
ensure that the DCAA audit recommendations were resolved on a timely basis and that
the resolutions were in NASA’s best interest.

U.S. General Accounting Office (GAO)

“NASA Contract Management: Improving the Use of DCAA’s Auditing Services,”
Report Number GAO/NSIAD-94-229, September 30, 1994. The GAO raised many
concerns related to NASA contractors’ unallowable cost claims, the status of contractors’
business systems, NASA’s involvement in the DCAA’s audit planning process,
timeliness of contract close out, and contract audit tracking and follow-up systems. The
GAO made six recommendations. Two of the recommendations dealt with NASA’s
untimely tracking and follow-up for the DCAA RCA reports: (1) monitoring the DCAA
audit recommendations that are resolved by the DOD CO’s and (2) documenting the
status and disposition of the DCAA audit recommendations in contract files. NASA
management agreed that its audit tracking and reporting systems needed improvements.




                                           24
Appendix H. Management’s Response




               25
Appendix H




             26
     Appendix H




27
                       Appendix I. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/B/Acting Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director, Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight

NASA Centers

ARC/D/Director, Ames Research Center
FRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
GSFC/150/Chief Financial Officer, Goddard Space Flight Center
JSC/AA/Director, Lyndon B. Johnson Space Center
LaRC/106/Acting Director, Langley Research Center
LaRC/109/Chief Financial Officer, Langley Research Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
MSFC/DA01/Director, George C. Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                         28
                                                                         Appendix I

Non-NASA Federal Organizations and Individuals Continued

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         29
                    NASA Assistant Inspector General for Audits
                                 Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title:       NASA’s Contract Audit Follow-up System

Report Number:                                        Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Lorne A. Dear, Program Director, Procurement Audits

Patrick A. Iler, Program Manager, Procurement Audits

Patrick A. Monaco, Auditor-in-Charge

Stephen K. Siu, Auditor-in-Charge

Lydia C. Lin, Auditor

Nancy C. Cipolla, Report Process Manager

Debra Schuerger, Program Assistant
